No. 19-759
In the

Supreme Court of the United States
__________________
MILO H. SEGNER, JR.,
v.

Petitioner,

CIANNA RESOURCES INCORPORATED,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________

BRIEF IN OPPOSITION
__________________
WILLIAM A. JOHNSON
DAVID A. ELDER
MATTHEW W. BROCKMAN
Counsel of Record
HARTZOG CONGER CASON
201 Robert Kerr Avenue, Suite 1600
Oklahoma City, Oklahoma 73102
(405) 235-7000
mbrockman@hartzoglaw.com
Counsel for Respondent
January 13, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Pursuant to 11 U.S.C. § 550, a bankruptcy
trustee may not recover an avoided fraudulent transfer
from a subsequent transferee who “takes for value,
including satisfaction or securing of a present or
antecedent debt, in good faith, and without knowledge
of the voidability of the transfer avoided.” The
Bankruptcy Code does not define good faith, but
longstanding federal case law holds that good faith
under § 550 turns on whether the transferee knew or
reasonably should have known of the insolvency or
fraudulent intent of the debtor.
The Fifth Circuit affirmed the district court’s
judgment below in favor of a subsequent transferee
under § 550 after a jury determined that the transferee
took for value, in good faith, and without knowledge of
voidability. The jury was presented with all relevant
evidence, and all parties agree that the jury was
properly instructed on the applicable legal standard for
good faith under § 550.
Should this Court grant certiorari in order to adopt
a bright-line rule that the overpayment of documentary
stamp taxes on recorded deeds for mineral interests
precludes a factual finding of good faith under 11
U.S.C. § 550 as a matter of law where there has been
no adjudication that such overpayment of stamp taxes
constitutes a violation, criminal or otherwise, of the
state statute imposing such taxes and where the
transferee’s overpayment of documentary stamp taxes
has no bearing on whether the transferee knew or

ii
reasonably should have known of the debtor’s
insolvency or fraudulent intent to operate a Ponzi
scheme?
2. Did the Fifth Circuit err in finding no abuse of
discretion relative to the district court’s formulation of
the jury verdict form that asked the jury to determine
whether the transferee took the entirety of the funds it
received for value, in good faith, and without
knowledge of voidability?

iii
CORPORATE DISCLOSURE STATEMENT
Respondent, Cianna Resources, Inc., states that it
has no parent company, and no public company owns
10% or more of its stock.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
REASONS FOR DENYING THE WRIT . . . . . . . . . . 8
I.

There is no conflict between the Fourth
Circuit’s decision in Goldman and the Fifth
Circuit’s affirming decision in this case . . . . . 8

II.

Grouping the transfers together for
the question of Cianna’s good faith did not
shift the burden of proof from Cianna to
Segner . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

III.

This case is a poor vehicle to decide what
constitutes good faith under the Bankruptcy
Code . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

v
TABLE OF AUTHORITIES
CASES
Aspen Skiing Co. v. Aspen Highlands Skiing Corp.,
472 U.S. 585, 105 S. Ct. 2847,
86 L. Ed. 2d 467 (1985) . . . . . . . . . . . . . . . . . . . . 16
City of Los Angeles v. Heller,
475 U.S. 796, 106 S. Ct. 1571,
89 L. Ed. 2d 806 (1986) . . . . . . . . . . . . . . . . . . . . 16
Gold v. First Tenn. Bank Nat’l Ass’n (In re Taneja),
743 F.3d 423 (4th Cir. 2014). . . . . . . . . . . . . . . . 11
Goldman v. Capital City Mortg. Corp.,
648 F.3d 232 (4th Cir. 2011). . . . . . . . . . . . 8, 9, 11
Gredd v. Bear, Stearns Sec. Corp.,
328 F. App’x 709 (2d Cir. 2009) . . . . . . . . . . . 3, 14
Horton v. Walter O’Cheskey (In re Am. Hous.
Found.), 544 F. App’x 516 (5th Cir. 2013) . . . . . 12
Howard D. Jury, Inc. v. R & G Sloane Mfg. Co.,
666 F.2d 1348 (10th Cir. 1981). . . . . . . . . . . . . . 15
Jimmy Swaggert Ministries v. Hayes
(In re Hannover Corp.),
310 F.3d 796 (5th Cir. 2002). . . . . . . . . . . . . . 9, 10
Jobin v. Cervenka (In re M&L Business
Machine Co.), 194 B.R. 496 (D. Colo. 1996) . . . . 14
Knight v. Texaco, Inc.,
786 F.2d 1296 (5th Cir. 1986). . . . . . . . . . . . . . . 15

vi
Meeks v. Red River Entm’t (In re Armstrong),
285 F.3d 1092 (8th Cir. 2002). . . . . . . . . . . . . . . 14
Midwest Underground Storage, Inc. v. Porter,
717 F.2d 493 (10th Cir. 1983). . . . . . . . . . . . . . . 15
Oladeinde v. City of Birmingham,
230 F.3d 1275 (11th Cir. 2000). . . . . . . . . . . . . . 14
Rudiger Charolais Ranches v. Van de Graaf
Ranches, 994 F.2d 670 (9th Cir. 1993). . . . . . 9, 10
Templeton v. O’Cheskey (In re Am. Hous. Found.),
785 F.3d 143 (5th Cir. 2015). . . . . . . . . . . . . . . . 12
Tompkins v. Cyr,
202 F.3d 770 (5th Cir. 2000). . . . . . . . . . . . . . . . 14
United States v. Taylor,
814 F.3d 340 (6th Cir. 2016). . . . . . . . . . . . . . . . 15
STATUTES AND CODES
11 U.S.C. § 548 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 10
11 U.S.C. § 550 . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.C.C. § 9-102(a)(43) . . . . . . . . . . . . . . . . . . . . . . . . . 9
68 O.S. § 3201, et seq.. . . . . . . . . . . . . . . . . . . . . . . . 11

1
INTRODUCTION
Cianna Resources, Inc. (“Cianna”) proved to the
satisfaction of a jury that the funds it received as a
subsequent transferee were taken in good faith, for
value, and without knowledge of voidability, and that
it was therefore not liable on the claims of the Trustee
under 11 U.S.C. § 550 of the Bankruptcy Code. The
payments to Cianna that the Trustee sought to recover
were made in connection with its work as a sub-broker
acquiring mineral interests in Oklahoma for Ruthven
Oil & Gas, LLC (“Ruthven”), which was the primary
broker acquiring mineral interests on behalf of
Provident Royalties, LLC (“Provident”) and its
affiliated entities (the “Provident Debtors”).
Unbeknownst to Cianna, and unrelated to Cianna’s
acquisition of mineral interests, Provident raised
money from a number of outside investors and was
operating as a Ponzi scheme by using new investor
funds to pay prior investors. Ultimately, the Provident
Debtors filed for bankruptcy.
Of the $21 million sought by the Trustee to be
recovered from Cianna, approximately $14.7 million
was paid by Cianna to the various sellers of the
mineral interests Cianna acquired for Ruthven. Cianna
retained only its agreed-upon commission for brokerage
services. Cianna acquired more than 18,000 net
mineral acres for Ruthven, which were subsequently
assigned to Provident. Cianna delivered clean and
marketable title to these mineral interests and
provided a warranty of title.
As Bankruptcy Trustee, Milo H. Segner, Jr.
(“Segner”) tried to recover the entire $21 million in

2
transfers, including not only Cianna’s commission but
also the amount flowing through Cianna to the sellers
of the mineral interests it acquired. The jury found that
Cianna received these funds in exchange for value, in
good faith, and without knowledge of voidability, and
the district court rendered judgment in favor of Cianna
accordingly. The Fifth Circuit affirmed the judgment,
finding no reversible legal error and concluding that
the jury’s verdict was not against the great weight of
the evidence.
Segner now challenges the Fifth Circuit’s affirming
decision on the grounds that: 1) Cianna’s overpayment
of documentary stamp taxes, in alleged violation of
Oklahoma law, precluded a finding of its good faith as
a matter of law, and 2) the jury should have been
required to answer 591 questions on the verdict sheet,
representing the questions of good faith, value, and
knowledge of voidability for each of the 197 transfers of
mineral interests from Cianna to Ruthven, and
ultimately to Provident.
This Court should decline to grant Segner’s Petition
for Writ of Certiorari, as there is no conflict among the
United States courts of appeal on the legal issues
presented. Segner did not object to the district court’s
jury instruction on the definition of good faith for
purposes of § 550, and the district court’s instruction
properly asked the jury to consider whether Cianna
knew or reasonably should have known of the
fraudulent intent of the Provident Debtors.
Further, there is no compelling need to adopt a
bright-line rule that the overpayment of documentary
stamp taxes on recorded deeds precludes a finding of

3
good faith as a matter of law, and this case is a
particularly poor vehicle for adopting such a rule.
Segner’s entire argument “concern[ing] the role of
criminal acts in deciding good faith” is contingent upon
an unresolved question of state law. Despite Segner’s
repeated references to the “crimes” committed by
Cianna, Cianna has never been accused of any crime or
statutory violation by the State of Oklahoma, and there
has been no finding or adjudication that Cianna’s
overpayment of stamp taxes constitutes a violation,
criminal or otherwise, of the Oklahoma law imposing
such taxes. In any event, Cianna’s overpayment of
stamp taxes has no bearing on whether it knew or
reasonably should have known that the Provident
Debtors were operating a Ponzi scheme by using new
investor funds to pay prior investors.
Similarly, there is no compelling need for this Court
to adopt a bright-line rule governing the jury verdict
form for determining good faith under § 550. Segner
argues that the district court should have required the
jury to fill in the questions of value, good faith, and
knowledge of voidability separately for each of the 197
individual transfers of mineral interests from Cianna
to Ruthven. Due to the volume of transactions, this
would have required the jury to respond to 591
separate special interrogatories. No United States
court of appeal has ever held that the Bankruptcy Code
requires separate good faith inquiries into each of a
series of related and overlapping transfers, and the
Second Circuit has held that there is no such
requirement. See Gredd v. Bear, Stearns Sec. Corp.,
328 F. App’x 709 (2d Cir. 2009) (addressing good faith
under 11 U.S.C. § 548). Segner’s suggestion that the

4
jury “might have found” differently if required to
express its findings as to each individual transfer is
nothing more than groundless speculation.
STATEMENT OF THE CASE
In early 2008, Wendell Holland of Ruthven
contacted Kyle Shutt of Cianna for help in acquiring oil
and gas interests across Oklahoma for Ruthven’s
“Dallas client.” ROA.25356:13-24. The Dallas client
was later revealed to be Provident. ROA.25518:9-15.
Prior to 2008, Cianna had worked with Ruthven on an
18-section prospect, wherein Cianna sold mineral
interests to Ruthven for its Dallas client and Cianna
received $500 per-acre commissions for each transfer.
ROA.25355:23-25356:12.
When Ruthven contacted Cianna in 2008, Ruthven
explained that the prospect known as the Spindletop
Prospect covered more than 250,000 acres and that
Ruthven, if hired as the broker for the Spindletop
Prospect, would need Cianna’s help to find and buy
mineral interests. ROA.25356:13-25358:6. Mr. Shutt
was an experienced mineral broker who started Cianna
in 1991, after working ten years in the Oklahoma oil
and gas industry as a landman. ROA.25326:17-25327:4.
For the Spindletop Prospect, Mr. Shutt agreed to
acquire mineral interests for Ruthven in exchange for
Cianna’s standard commission of five hundred dollars
per acre. ROA.25357:2-12. Mr. Shutt later agreed to
lower Cianna’s per acre commission due to the success
of the prospect and the amount of mineral acres being
acquired. ROA.25423:6-16. Petitioner’s allegation that
Cianna “flipped each interest to Ruthven at double the

5
price” is false and unsupported by the record. For the
entire project, Cianna’s average gross commission was
under $400 per acre it delivered to Ruthven for
assignment to Provident, netting Cianna a profit after
expenses, taxes, and tithe, of $3.2 million.
ROA.25417:10-25418:3, 26249:4-15.
As a sub-broker, Cianna acquired mineral interests
for Ruthven, and Ruthven sold those interests to
Provident. ROA.22943-22944, 25421:19-25422:17.
Cianna never had direct contact with Provident, as all
directions came from Ruthven. ROA.25422:11-17. At all
times, Ruthven knew the exact amount of Cianna’s
commissions. ROA.25422:18-25423:16.
After Cianna began working on the project, Ruthven
told Cianna that Provident wanted to memorialize the
agreement with a “Sub-Broker Agreement,” which
Cianna signed in May of 2008. ROA.25358:18-25359:5,
25413:5-18, 28696. The Sub-Broker Agreement
contained highly restrictive non-compete provisions
that prohibited Cianna from purchasing minerals in
the Spindletop Prospect for its own benefit or for the
benefit of other clients. ROA.25413:24-25414:8, 28700,
28709-28714. Cianna also agreed to strict
confidentiality provisions that prohibited disclosure of
any information related to the Spindletop Prospect or
the Sub-Broker Agreement. ROA. 25415:21-25416:6,
28699-28700, 28705-28708.
Over the course of the enterprise, Cianna acquired
more than 18,000 net mineral acres for Ruthven/
Provident, provided clean and marketable title thereto,
and delivered warranty of title for the interests.
ROA.26152:3-8, 26177:16-18, 26181:10-12. Whenever

6
title to mineral interests needed clearing, Cianna took
full responsibility for clearing the clouded title.
ROA.30206-30210, see also ROA.25567:17-25568:5,
25569:3-24, 26039:13-26040:5.
Mr. Shutt included Cianna’s agreed-upon
commission in the sale price for purposes of calculating
the documentary stamp tax due on the sale.
ROA.25463:25-25464:6. Cianna followed this practice
on non-Provident interest transfers as well, as do many
in the Oklahoma oil and gas industry, so that
competitors would not be able to determine the exact
price of the interests sold. ROA.25350:23-25351:5,
25548:20-25549:20, 25799:8-17. Cianna has never had
any complaint about the method by which it calculates
and pays the documentary stamp tax. ROA.25549:1720. Cianna has never been accused by any local or state
official of violating Oklahoma law by overpaying the
stamp tax. ROA.25550:12-16. Trial testimony
established that overpaying the documentary stamp
tax is a common industry practice to stay competitive
in buying and selling mineral interests. ROA.25799:817.
During the course of its work for Ruthven, Cianna
never heard anything negative about Provident and
had no reason to suspect any wrongdoing by Provident
with respect to its acquisition of minerals in Oklahoma.
ROA.25438:15-22, 25448:4-19. The SEC receiver
testified that there was no evidence that any of the
money paid to Cianna was ever “siphoned off” or
“kicked back” to the principals of Provident or their
affiliated entities. ROA.26404:14-20, 26405:7-17,
26407:7-26408:7. The Provident Debtors were made

7
aware of the amount paid by Cianna for the stamp
taxes by one of the mineral owners from whom Cianna
had acquired mineral interests. ROA.30215. In
response, Cianna asked Ruthven to notify Provident
that “[it] may feel free to look at Cianna’s books at any
time to verify what is being paid for the minerals, and
what they are being sold to Ruthven for.” ROA.28525.
Neither Ruthven nor Provident ever objected to
Cianna’s method of paying the stamp taxes on mineral
deeds. ROA.25425:1-9.
Cianna’s work for Ruthven and Provident ended in
October 2008. ROA.25423:17-19. In July of 2009, ten
months after Cianna had completed its work on the
project, the Provident Debtors filed for bankruptcy.
ROA.25948:16-21. Segner was appointed as Trustee of
the PR Liquidating Trust in June of 2010. Id. Pursuant
to 11 U.S.C. § 550, Segner attempted to recover roughly
$21 million from Cianna as a subsequent transferee,
more than $14 million of which had been paid out to
mineral owners. ROA.25417:10-25418:3.
At trial, the district court instructed the jury to look
at all the facts and circumstances when determining
whether Cianna acted in good faith: “Generally, you
must determine whether Cianna was on notice of the
fraudulent nature of the transactions that resulted in
it receiving the money from Provident via Ruthven.”
ROA.22948. The district court added that, in answering
the question of whether Cianna had notice, “Cianna
must have shown that it lacked information that would
put a reasonable person in Cianna’s line of work on
notice of fraudulent intent underlying the transactions
at issue.” Id. Further, if Cianna did in fact have

8
information that would put a reasonable person on
notice, “Cianna must have shown that a diligent
inquiry would not have discovered the fraudulent
purpose.” Id.
The Fifth Circuit Court of Appeals affirmed the
district court’s entry of judgment for Cianna after the
jury found that Cianna was a good-faith subsequent
transferee under the Bankruptcy Code. For the reasons
stated herein, this Court should deny Segner’s Petition
for Writ of Certiorari.
REASONS FOR DENYING THE WRIT
I.

There is no conflict between the Fourth
Circuit’s decision in Goldman and the Fifth
Circuit’s affirming decision in this case.

In petitioning this Court, Segner mischaracterizes
a Fourth Circuit holding so as to create a conflict that
does not exist. Segner contends that the Fourth Circuit,
in Goldman v. Capital City Mortg. Corp., “held that
evidence of criminal conduct by others cannot establish
the observance of reasonable commercial practices
necessary to prove good faith under the [Bankruptcy]
Code.” Pet. at 3; 648 F.3d 232 (4th Cir. 2011). What the
Fourth Circuit actually held was that “the objective
good-faith standard probes what the transferee knew
or should have known … taking into consideration the
customary practices of the industry in which the
transferee operates.” Goldman, 648 F.3d at 240-41. The
sole mention of any conduct in violation of a statute
occurred in the Fourth Circuit’s broader discussion of
“the development of the good faith standard in other

9
areas of commercial law,” see id. at 239-40 (emphasis
added), wherein the court noted:
Under the objective prong, a party acts without
good faith by failing to abide by routine business
practices. See Rudiger Charolais Ranches v. Van
de Graaf Ranches, 994 F.2d 670, 672-73 (9th Cir.
1993) (reasonable commercial practice includes
a ‘custom or practice’ unless in conflict with a
statute); see also Grant Gilmore, The
Commercial Doctrine of Good Faith Purchase, 63
Yale L.J. 1057, 1122 n.22 (1954) (good faith
standard captures routine business practices of
industry).
Id. at 240. Segner contends that by including this
parenthetical summary of the Ninth Circuit’s decision
in Rudiger, the Fourth Circuit has somehow adopted a
bright-line rule for the good faith standard that
incorporates the holding in Rudiger, a contention that
is wholly unsupported by the Fourth Circuit’s opinion
in Goldman. Even if this citation could be interpreted
in the manner suggested by Segner, the Ninth Circuit’s
decision in Rudiger does not create a conflict
necessitating review by this Court for several reasons.
First, Rudiger involved a cattle transaction
governed by the Uniform Commercial Code (“UCC”),
which defines good faith as requiring “honesty in fact
and the observance of reasonable commercial standards
of fair dealing in the trade.” U.C.C. § 9-102(a)(43). The
Bankruptcy Code does not define good faith, leaving
courts to consider the totality of the circumstances on
a case-by-case basis. See Jimmy Swaggert Ministries v.
Hayes (In re Hannover Corp.), 310 F.3d 796, 800-01

10
(5th Cir. 2002) (providing that “good faith” is not
defined in the Bankruptcy Code, advising “caution in
attempting to propound a broad rule concerning ‘good
faith’ for § 548(c)”). The latitude that courts have to
analyze mediate transferees under the Bankruptcy
Code does not create a conflict merely because the UCC
provides a more narrowed definition of good faith for a
different type of purchaser.
Second, the cattle buyer in Rudiger failed to follow
a statute that directly addressed the cattle industry’s
informal business practices. Rudiger, 994 F.2d at 673.
In Rudiger, the cattle buyer argued he was a good-faith
purchaser of the cattle under the UCC because he
followed the reasonable commercial practices of the
cattle industry, even though he failed to verify the
seller owned the cattle before taking possession. Id. at
672. At the time of purchase, Washington law stated
that “[n]o person shall have in his possession any
livestock marked with the recorded brand or tattoo of
another person” unless certain requirements dealing
with branding and inspection were met by the buyer.
Id. Viewing this statute in the context of the UCC, the
Ninth Circuit found that the cattle buyer did not act in
good faith by failing to verify the seller’s title before
taking possession of the cattle. Id. at 673.
While the Washington statute in Rudiger addressed
the issue of gaining title to property that might be held
by another, the statute at issue in this case is wholly
irrelevant to a good-faith transferee analysis. The
Oklahoma Documentary Stamp Tax Act (“ODSTA”)
requires parties to a property transaction to affix a
document stamp to the resulting deed so that taxes

11
may be imposed on the sale of property. 68 O.S. § 3201,
et seq. The main purpose of the ODSTA is to collect
taxes on property transfers, not to ensure that property
grantors verify that funds they receive from grantees
cannot later be claimed by third parties.
More importantly, the Fourth Circuit has recently
opposed Segner’s proffered bright-line rule on good
faith and routine business practices. In Gold v. First
Tenn. Bank Nat’l Ass’n (In re Taneja), the bankruptcy
trustee relied on Goldman to argue that “the bank, as
a matter of law, was unable to prove good faith without
showing that ‘each and every act taken and belief held’
by the bank constituted ‘reasonably prudent conduct by
a mortgage warehouse lender’.” 743 F.3d 423, 430 (4th
Cir. 2014). The Fourth Circuit disagreed with the
trustee:
While the trustee correctly observes that the
objective good-faith standard requires
consideration of routine business practices, the
trustee’s position well exceeds the requirement
that a court consider ‘the customary practices of
the industry in which the transferee operates.’
We decline to adopt a bright-line rule
requiring that a party asserting a goodfaith defense present evidence that his
every action concerning the relevant
transfers was objectively reasonable in
light of industry standards. Instead, our
inquiry regarding industry standards serves to
establish the correct context in which to consider
what the transferee knew or should have known.
Gold, 743 F.3d at 431 (emphasis added).

12
Similarly, the Fifth Circuit’s definition of good faith
in the context of subsequent transferee hinges on
“whether the claimant was on notice of the debtor’s
insolvency or the fraudulent nature of the transaction.”
Horton v. Walter O’Cheskey (In re Am. Hous. Found.),
544 F. App’x 516, 520 (5th Cir. 2013). “Once a
transferee has been put on inquiry notice of either the
transferor’s possible insolvency or of the possibly
fraudulent purpose of the transfer, the transferee must
satisfy a ‘diligent investigation’ requirement.”
Templeton v. O’Cheskey (In re Am. Hous. Found.), 785
F.3d 143, 164 (5th Cir. 2015).
There is no conflict between the Fourth Circuit and
Fifth Circuit in determining good faith under the
Bankruptcy Code. Both courts look to what the
transferee knew or should have known about the
debtor’s insolvency or fraud. The district court properly
instructed the jury by defining the applicable legal
standard for Cianna’s good faith defense, and Segner
did not object to this instruction at trial. ROA.21838,
24159.
As succinctly stated by the district court, Segner’s
reliance on the alleged violation of the ODSTA “ignores
that Cianna’s good faith hinged on what it knew or
should have known about Provident.” ROA.24159.
Cianna’s alleged violation of the ODSTA “does not
establish as a matter of law that Cianna knew or
should have known that Provident was defrauding its
investors.” Id.
There is no meaningful conflict between the United
States courts of appeal regarding the definition of good
faith under § 550 and, in any event, Segner failed to

13
preserve any objection to the district court’s jury
instruction on this issue. There is no compelling reason
justifying review of the Fifth Circuit’s decision, and the
petition must therefore be denied.
II.

Grouping the transfers together for the
question of Cianna’s good faith did not
shift the burden of proof from Cianna to
Segner.

At trial, Cianna had the burden to prove that it took
all transfers from Ruthven for value, in good faith, and
without knowledge of the transfers’ voidability. Segner
proposed to the district court that the jury should be
required to answer whether Cianna met that burden
for each transfer involved in the Spindletop Prospect.
The Spindletop Prospect included 197 transfers of
mineral properties from Cianna to Ruthven. For the
three questions of value, good faith, and lack of
knowledge, the jury would have had to answer to 591
separate inquiries. The lower court rightfully refused
to accept Segner’s proffered format, and instead
grouped the transfers together for each of the three
questions relating to the elements of Cianna’s
affirmative defense.
Segner argues on appeal that the question
submitted to the jury flipped the burden of proof from
Cianna to Segner. Segner alleges that “[t]he all-ornothing question enabled Cianna to prove its good faith
in 197 transfers over an eight-month period by
convincing the jury it acted in good faith on the first
transfer.” The exact opposite is true. Cianna had the
burden to prove its good faith on all 197 transfers, to
include the very last transfer, before the jury could

14
decide that Cianna had established its affirmative
defense. As Segner submitted evidence at trial of
alleged “mounting red flags,” Cianna actually bore the
greatest risk of grouping the jury instruction, not
Segner.
Segner cannot support his contention that, when
multiple transfers are at issue, a jury is required to
answer as to the transferee’s good faith for each
individual transfer. Rather, courts have consistently
viewed a transferee’s good faith over a period of time
where there are multiple transactions. See Gredd v.
Bear, Stearns Sec. Corp., 328 F. App’x 709, 710 (2d Cir.
2009) (finding no authority or compelling argument for
separating multiple transactions for individual
inquiries of good faith); Meeks v. Red River Entm’t (In
re Armstrong), 285 F.3d 1092 (8th Cir. 2002)
(evaluating a transferee’s conduct over the span of one
year where transferee received multiple transactions);
Jobin v. Cervenka (In re M&L Business Machine Co.),
194 B.R. 496 (D. Colo. 1996) (evaluating a series of
post-dated checks to find whether a transferee took
Ponzi scheme proceeds in good faith without inquiring
into each separate transfer).
Even if other courts could have separated some or
all of the transfers, a reviewing court should not
overturn a lower court’s jury charge unless the jury
charge included an “obviously incorrect statement of
law,” that “was probably responsible for an incorrect
verdict, leading to substantial injustice.” Tompkins v.
Cyr, 202 F.3d 770, 784 (5th Cir. 2000); See also
Oladeinde v. City of Birmingham, 230 F.3d 1275, 1296
(11th Cir. 2000) (“We review de novo the question

15
whether the court’s instructions to the jury misstated
the law or misled the jury to the prejudice of the
objecting party.”); United States v. Taylor, 814 F.3d
340, 364 (6th Cir. 2016) (“A jury instruction supports
overturning a sentence only if the jury instructions, as
a whole, were confusing, misleading, or… prejudicial.”).
Nothing about the lower court’s refusal to separate
the 197 transfers amounts to an obviously incorrect
statement of law. The jury found that Cianna
established its burden to prove its good faith and
affirmative defense for all of the transfers at issue.
Even though the jury did not have to answer hundreds
of separate inquiries, the jury did in fact answer the
question of Cianna’s good faith throughout the entire
prospect.
Segner speculates in his Petition that the jury
“might have found” differently if Segner’s proposed jury
form were used. This argument is premised on nothing
more than rank speculation, and is not sufficient
grounds upon which to disregard the jury’s verdict.
Howard D. Jury, Inc. v. R & G Sloane Mfg. Co., 666
F.2d 1348, 1352 (10th Cir. 1981); see also Knight v.
Texaco, Inc., 786 F.2d 1296, 1299 (5th Cir. 1986) (“We
will not upset a verdict on the basis of such
speculation”); Midwest Underground Storage, Inc. v.
Porter, 717 F.2d 493, 501 (10th Cir. 1983) (“It is well
settled that a verdict will not be upset on the basis of
speculation as to the manner in which the jurors
arrived at it.”).
Segner’s argument is not only speculative, it is also
inconsistent with the jury’s verdict and the express
finding that Cianna acted in good faith with respect to

16
the entirety of the funds it received from Provident via
Ruthven. This Court presumes that “juries act in
accordance with the instructions given them, … and
that they do not consider and base their decisions on
legal questions with respect to which they are not
charged.” City of Los Angeles v. Heller, 475 U.S. 796,
798–99, 106 S. Ct. 1571, 1572–73, 89 L. Ed. 2d 806
(1986) (citing Aspen Skiing Co. v. Aspen Highlands
Skiing Corp., 472 U.S. 585, 604, 105 S. Ct. 2847, 2858,
86 L. Ed. 2d 467 (1985)).
III.

This case is a poor vehicle to decide what
constitutes good faith under the
Bankruptcy Code.

This case is a poor vehicle to determine the issue of
whether a subsequent transferee’s noncompliance with
a state statute precludes a finding of good faith because
Segner waived the issue at trial. In the course of
determining jury instructions, Segner failed to request
that the lower court use the UCC definition of good
faith, and instead agreed to the standard utilized by
the Fifth Circuit: a two-part inquiry questioning
whether Cianna had information that would have put
a reasonable person on notice of the fraudulent nature
of a transaction, and if so, whether a diligent inquiry
would have revealed the fraudulent purpose. Segner
waived his right to seek appellate review of the good
faith jury instruction, but now seeks review based upon
the legal standard applied. ROA.21838, 24159.
Moreover, Segner’s contention about the alleged
conflict between the circuit courts of appeal regarding
the definition of good faith under § 550 is premised
upon “the role of criminal acts in deciding good faith.”

17
Pet., 13. But Cianna has never been accused of, much
less convicted of, any criminal act. In order to reverse
the decision below, this Court must not only determine
that a conflict exists between the circuit courts
regarding the role of criminal acts in determining good
faith under § 550, a conflict which does not exist, it
must also determine that Cianna has, in fact,
committed a criminal act by overpaying the
documentary stamp tax imposed under Oklahoma law.
Whether Cianna’s overpayment of stamp taxes
constitutes a criminal violation of Oklahoma law was
not addressed by the lower courts and has never been
adjudicated in any other case because Cianna has
never been charged with any crime.
Finally, to adopt the bright-line rule proposed by
Segner, and to apply it to this case to determine that
Cianna lacked good faith as a matter of law, would be
a significant departure from the established case law
on good faith under § 550. The overwhelming majority
of courts to address the issue have determined that
good faith hinges on whether the transferee knew or
should have known of the insolvency or fraudulent
intent of the debtor. The alleged “criminal” conduct by
Cianna relates solely to its own decision to overpay
stamp taxes on mineral deeds and has no relationship
whatsoever to the Ponzi scheme operated by the
Provident Debtors. Whether “criminal” or not, Cianna’s
overpayment of stamp taxes has no bearing on whether
Cianna knew or reasonably should have known that
the Provident Debtors were operating a Ponzi scheme
by using new investor funds to pay prior investors.

18
CONCLUSION
This case does not merit further time or attention
by this Court. Accordingly, Segner’s Petition for Writ of
Certiorari should be denied.
Dated this 13th day of January, 2020.
Respectfully submitted,
WILLIAM A. JOHNSON, OBA No. 4730
DAVID A. ELDER, OBA No. 20687
MATTHEW W. BROCKMAN, OBA No. 22077
Counsel of Record
HARTZOG CONGER CASON
201 Robert S. Kerr Ave., Suite 1600
Oklahoma City, Oklahoma 73102
Telephone: (405) 235-7000
Facsimile: (405) 996-3403
mbrockman@hartzoglaw.com
Counsel for Respondent
Cianna Resources, Inc.

